BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-312
VOLKSWAGEN AKTIENGESELLSCHAFT, ET AL.,

Petitioners,
v.
STATE OF OHIO, EX REL. DAVE YOST, OHIO ATTORNEY
GENERAL,

Respondent.
As required by Supreme Court Rule 33.1 (h), I certify
that the Amici Curiae Brief of Former Environmental
Protection Agency, California Air Resources Board, and
Department of Justice Officials Jeffrey E. Holmstead,
Ronald J. Tenpas, John D. Dunlap III, and Lynn Buhl
in Support of Petitioners contains 5,080 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Executed on September 30, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

Notary Public, State of Ohio
My Commission Expires
r·,-,tiniary 14, 2''. :1

